2006 Government in the Sunshine Act



     National Science Foundation
      Office of Inspector General




           February 15,2007
             OIG 07-2-003
Table of. Contents



         Introduction and Background....................................................I

         Objective. Scope. and Methodology..........................................4

         Results of Audit ....................................................................5

         Decision to Close..................................................................5

         Procedural Compliance.........................................................9

         Appendix A: Agency Response.............................................12
Introduction
                  Background

                  The National Science Board (Board) is the governing entity of the
                  National Science Foundation (NSF), an independent Federal
                  agency established by the National Science Foundation Act of
                  1950. The Board is composed of 24 part-time, Presidentially
                  appointed members, who are selected on the basis of their
                  eminence in research or public affairs, and the NSF Director.

                  The Board has the responsibility for providing national science
                  policy advice to the President and Congress, and for acting as the
                  governing Board of the NSF. The Board conducts ,its business
                  during two-day meetings, which are generally held five to six times
                  a year. Much of the Board's analysis and background work in
                  preparation for Board discussion and action is done through its
                  committees.

                  Currently, the Board has five standing committees: Executive, Audit
                  and Oversight, Education and Human Resources, Programs and
                  Plans, and Strategy and Budget. These committees, and other
                  subcommittees and task forces, generally meet during the same
                  two-day period as the full Board. In addition, the committees
                  occasionally meet at other times throughout the year on an as-
                  needed basis.

                  The Government in the Sunshine Act

                  In the early 1970s, partially in response to the Watergate scandal,
                  Congress enacted the Government in the Sunshine Act along with
                  other anti-secrecy legislation. Congress intended the Sunshine Act
                  to open the government's deliberation processes to public scrutiny.

                  The Act applies to agencies "headed by a collegial body composed
                  of two or more individual members . . . and any subdivision thereof
                  authorized to act on behalf of the agency,"' and covers some 50
                  Federal agencies, including the National Science Board. The Act
                  requires that "every portion of every meeting of an agency shall be
                  open to public observationn2with ten narrow exemptions for
                  discussions of material that are likely to disclose:



' 5 U.S.C. § 552b(a)(l) (2005)
 Id. 9 552b(b).
                      (1) National Defense and foreign policy;
                      (2) Internal personnel rules and practices;
                      (3) Statutory exemptions;
                      (4) Proprietary information;
                      (5) Accusation of crime or formal censure;
                      ( 6 ) Personal privacy;
                      (7) Investigatory records;
                      (8) Financial institution reports;
                      (9)(A) Financial speculation and stability;
                      (9)(B) Frustration of proposed agency action; and
                      (10) Issuance of subpoena, participation in civil action or
                      proceeding, or formal agency adjudication^.^

               While the Act does not require an agency to hold meetings, it does
               contain a number of procedural requirements that must be followed
               when an agency decides to meet for either a closed or open
               session. First, at least one week prior to each meeting, the agency
               must make a public announcement regarding the time, place, and
               subject matter of the meeting, the name and phone number of the
               designated official, and whether the meeting is to be open or
               closed.

               Additionally, to close all or a portion of a meeting, an agency must
               vote to do so and make publicly available a written copy of the vote
               and a "full written explanation of its action closing the portion [of the
                meeting^."^ Also, for a closed meeting, the agency's General
               Counsel must publicly certify that the meeting may be closed under
               one of the Act's exemptions. Finally, the agency must annually
               report to the Congress: any changes in the agency's policies and
               procedures under the Act; a tabulation of the number of meetings
               held, exemptions applied, and the days of public notice provided to
               close a meeting; a brief description of litigation or formal complaints
               concerning the implementation of the Act; and any changes in law
               that have affected the open-meeting responsibilities of the agency.

               Open Meetings of the National Science Board

               In accordance with the Government in the Sunshine Act, the
               National Science Board has traditionally opened its full-Board
               meetings to the public. However, prior to 2003, the Board did not
               provide public access to the meetings of its committees,
               subcommittees, taskforces, or other subdivisions.



Id. 9 552b(c).
Id. 9 552b(d)(3).
               The NSF Authorization Act of 2002, which became effective in
               December 2002, contained administrative amendments to the
               National Science Foundation Act pertaining to Board meetings. As
               part of these amendments, the Congress specified that in addition
               to meetings of the full Board, "all of its subcommittees, and task
               forces (and any other entity consisting of members of the Board
               and reporting to the Board) shall be subject to [the Sunshine ~ct]."'
               Consequently, during 2003, the Board opened to the public, for the
               first time, its committee and other subdivision meetings.

               Audit Requirement

               In keeping with its interest for greater openness in Board meetings,
               the Congress placed another requirement in the NSF Authorization
               Act directing that the NSF Office of Inspector General (OIG)
               "conduct an annual audit of the compliance by the Board with [the
               Sunshine ~ c t ] . "The
                                    ~ audit is "to examine the proposed and actual
               content of closed meetings and determine whether the closure of
               the meetings was consistent with [the A C ~ ] . "In~a report submitted
               to the Congress by February 15th of each year, the OIG is to make
               "recommendations for corrective actions that need to be taken to
               achieve fuller compliance with [the Sunshine Act] and
               recommendations on how to ensure public access to the Board's
               deliberations."*

               This is the fourth annual audit of the Board's Sunshine Act
               activities. Prior years' audits found a clear intent on the part of the
               Board to provide for greater access to and increased openness in
               its meetings. With respect to the Board's decision to close
               meetings, we found that the Board generally closed its meetings
               consistent with the Sunshine Act's exemptions. However, we noted
               instances where the Board included agenda items in its closed
               meetings that should have been more properly included in open
               sessions. In addition, in all three years, the Board faced challenges
               in meeting the Act's numerous procedural requirements. We
               recommended that the Board develop and implement formal
               policies, processes, and procedures for complying with the Act's
               numerous procedural and closure requirements and to provide
               training to pertinent staff. The Board agreed with the audit findings
               of all three prior audits.




  Pub. L. NO.107-368 (2002).
6
  Id.
'
8
  Id.
  Id.
Objectives, Scope, and Methodology
               In keeping with the statutory audit requirement, the objectives of
               our audit were to:

                       Determine whether the Board's closures of meetings were
                       consistent with the exemptions contained in the Government
                       in the Sunshine Act; and

                       Determine whether the Board and its subdivisions were in
                       compliance with the procedural requirements of the
                       Government in the Sunshine Act.

               Our audit covered Board meetings held from January through
               December 2006. During this timeframe, the Board conducted 85
               separate meetings of which 28, or 33 percent, were closed. For the
               purposes of this audit, we counted each of the various committee,
               subcommittee, and task force meetings separately, although they
               typically occur during the same two-day time period. Also, we
               considered a committee meeting with both an open and closed
               portion on the same day as two separate meetings: one open and
               one closed. However, we considered a committee meeting that
               met for more than one non-consecutive time frame during a single
               day, and was either entirely open or entirely closed, as one
               meeting. For example, an open Task Force on Polar Issues
               meeting from 1:00pm to 3:00pm, with a closed portion from 1:30pm
               to 2:OOpm would count as two meetings. Likewise, an open
               Education and Human Resources Committee meeting from 9:OOam
               to 10:OOam and again from 1:00pm to 2:OOpm on the same day,
               with no closed session, would count as one meeting.g

               To determine whether the Board complied with the procedural
               requirements of the Sunshine Act, we interviewed agency
               personnel and gathered and reviewed documentation for all
               meetings to determine whether the Board met the Act's
               requirements for public notice. For each of the closed meetings,
               we reviewed documentation to determine whether the Board met
               the applicable Act requirements, including the vote to close and
               General Counsel certification.

               To determine whether the Board closed its meetings in accordance
               with the Act's exemptions, we reviewed a sample of I8 of the 28
               closed-meeting transcripts and compared them with meeting

9
 For purposes of our audit we counted the Plenary Closed and Plenary Closed Executive Board
meetings as one meeting.
          agendas, General Counsel certifications, and the Board's
          explanations for closing meetings.

          We conducted our work during the period of September 2006
          through January 2007 in accordance with generally accepted
          government auditing standards.

Results of Audit
          During 2006, the National Science, Board again demonstrated a
          clear intent to comply with the Sunshine Act regulations and
          generally closed its meetings only when warranted, consistent with
          the exemptions contained in the Act. However, we noted instances
          where the Board, and particularly the Executive Committee,
          continued to include open agenda items in several of its closed
          meetings that more properly should have been included in open
          sessions. The decision to include agenda items in open or closed
          sessions necessarily is made in advance of the actual meeting.
          However, because of a lack of documentation, we were unable to
          determine whether the Board properly applied the Sunshine Act's
          prospective standard of being likely to reveal information covered
          by one of the Act's exemptions when deciding upon closed meeting
          agenda items. As a result, the public may not have fully reaped the
          benefits of the open government promised by the Sunshine Act as
          it applied to several agenda items included in closed sessions. As
          such, we once again recommend that the Board develop,
          implement, and provide training on a process for documenting the
          reason for placing each agenda item in a closed meeting rather
          than an open meeting.

          In meeting the procedural requirements of the Sunshine Act, the
          Board greatly improved its compliance due to a new process for
          tracking due dates implemented by the Board Office. Nevertheless,
          there are two areas where the Board could improve its procedural
          compliance with the Act. These are ensuring the Board votes on
          and announces all changes to publicly announced agendas and
          instructing court reporters to fully record all closed meetings.

Decision to Close
          Presumption in Favor of Open Meetings

          The overall presumption of the Sunshine Act is in favor of open
          meetings. This is consistent with the Act's underlying policy that
          "the public is entitled to the fullest practicable information regarding
                 the decision-making processes of the Federal ~ o v e r n m e n t . " ~ ~
                 However, the Sunshine Act recognizes that circumstances exist in
                 which public disclosure of a particular matter may not be in the
                 government's best interest. As such, the Act has built-in exceptions
                 to its open meeting requirement. Although the starting point for any
                 meeting is always openness, an agency may1' choose to close a
                 meeting if the discussion "is likely" to disclose information contained
                 in one of the Act's ten exemptions.12

                 The language of the Sunshine Act requiring open meetings "is
                 sweeping, unqualified, and mandatory."13 Thus, the ten exemptions
                 are to be construed narrowly14so that the greatest amount of
                 openness can be achieved. The Sunshine Act envisions that
                 agencies will engage in a two-step process when deciding whether
                 to close a meeting. The agency must first make a determination
                 whether the expected discussion is likely to reveal information
                 contained in one of the Act's exemptions.15 Second, the agency
                 must make a determination as to whether public interest requires
                 opening of the meeting even in the face of an exemption.16

                 Improvements Still Needed

                 During 2006, the Board closed 28, or 33 percent, of its 85 total
                 meetings for reasons involving 8 of the 10 exemptions contained in
                 the Sunshine Act. Our review of a sample of 18 of the 28 closed
                 meetings found several agenda item discussions that did not
                 appear to contain information that met one of the Act's exemptions.


10
   Pub. L. No. 94-409, 90 Stat. 1241, at 9 2 (1976).       I
11
   "As with FOIA, the exemptions from the Sunshine Act are permissive, not mandatory; an
agency may close a meeting or any portion of a meeting if it is protected by one of the
exemptions." The Government in the Sunshine Act - An Overview, 1977 DUKEL. J. 565 (1977)
(citations omitted). The one exception to this is mandatory closure under e x p p t i o n three.
*  See 5 U.S.C. 9 552b(c) (2005).
l3Pacific Legal Fndn v. Council on Environmental Quality, 636 F.2d 1259, 1265 (D.C. Cir. 1980).
14
   See, e.g., Common Cause V. Nuclear Regulatory Comm'n, 674 F.2d 921, 928 (D.C. Cir. 1982);
see also H.R. REP.NO.94-880, pt. I , at 3 (1976) ("In case of doubt as to whether a portion of a
meeting is exempt, the presumption is to be in favor of openness[,] . . . even if a matter falls within
an exemption.").
l5 "Congress rejected the approach of establishing "functional categories" of agency business
whose discussion could automatically be closed to the public. Instead the Sunshine Act
provides for an examination of each item of business to ascertain whether it may be
closed under the terms of one of ten specific exemptions." Common Cause, 674 F.2d at 932
(emphasis added).
 6
   "In making this decision [to close a meeting], the agency must utilize a balancing process to
determine whether 'the public good achieved by opening the meeting out weighs the advantages
to be gained by closing it."' Susan T. Stephenson, Government in the Sunshine Act: Opening
Federal Agency Meetings, 26 AM. U. L. REV.154, 173 (1976-1977) (quoting S. Rep No. 354, 94th
Cong., 1 Sess. 20 (1975)).
                Most of these agenda items occurred during Executive Committee
                meetings.

                For example, the August 9 Executive Committee closed meeting
                included the agenda item "Future Budgets." The justification to
                close this agenda item was that the discussion would pertain to
                "future bud ets not yet submitted by the President to the
                C~ngress."'~Our review of the closed meeting transcript revealed
                that the actual discussion was of NSF's intent to make its annual
                award of $2 million to the Human Frontier Science program, as well
                as a non-research award to the US National Academy of Science.
                Both of these awards were brought as information items to the
                Board during the closed meeting and required no action - the
                agency was just informing the Board of its intent to make these
                awards. It appears that this discussion does not meet the "future
                budget" or any other Sunshine Act exemption.

                In another example, the September 27 Executive Committee closed
                meeting included an item classified as "Specific Personnel Matters"
                and "Future Budgets." The justification to close this agenda item
                was that the discussion "would be likely to constitute a clearly
                unwarranted invasion of personal privacy" l8  and would pertain to
                "future bud ets not yet submitted by the President to the
                             9
                Congress." However, our review of the closed transcripts revealed
                that the actual discussion was to inform the Executive Committee
                members about the recently enacted Federal Funding
                Accountability and Transparency Act of 2006,~'its requirements,
                and a request from the Office of Management and Budget for NSF
                to be actively involved in the government-wide implementation of
                this act. This discussion also appears not to meet any of the
                Sunshine Act exemptions.

                In other instances, committees, including the Executive Committee,
                occasionally discussed personnel matters in closed sessions that
                should have been in open sessions of the Board. The justifications
                to close these personnel discussions were that such discussions
                "would be likely to constitute a clearly unwarranted invasion of


17
   The NSF Act contains a specific exemption for future budgets not yet submitted to the
Congress, 42 U.S.C. § 1863(k) (2005), which falls within the Sunshine Act's statutory exemption,
5 U.S.C. § 552b(c)(3).
l8 See 5 U.S.C. § 552b(c)(6).
19
   The NSF Act contains a specific exemption for future budgets not yet submitted to the
Congress, 42 U.S.C. § 1863(k) (2005), which falls within the Sunshine Act's statutory exemption,
5 U.S.C. § 552b(c)(3).
20
   This act calls for a publicly accessible and searchable database for all grants, contracts, and
sub-recipient awardees with data no more than 30 days old to be available by January 1, 2008.
                  personal pri~acy."~'  However, our review of these closed meeting
                  transcripts did not reveal any discussions that "would be likely to
                  constitute a clearly unwarranted invasion of personal privacy."
                  Rather, these discussions were of a very general nature and did not
                  provide personal information. Most of the time, when individual
                  names were used it was in the context of announcing individuals
                  who had been recently appointed to particular management
                  positions within the agency, matters, which if disclosed publicly
                  would not have invaded personal privacy. Consequently, it does
                  not appear that these discussions met the requirements of any
                  Sunshine Act exemptions.

                  Including open agenda items in closed meetings occurred because
                  the decision to include these items in open or closed sessions
                  necessarily is made in advance of the actual meeting. The
                  standard for closure in the Sunshine Act is whether an upcoming
                  discussion "is likely" to disclose exempted i n f ~ r m a t i o n .This
                                                                                      ~~
                  standard is to be applied prospectively. However, there is no
                  documentation to show why certain agenda items were placed into
                  closed session rather than open. Without such documentation, we
                  are unable to determine whether the Board properly considered the
                  "is likely'' standard when determining what agenda items to include
                  in closed session and how the exemptions may have applied.
                  Consequently, we can only look at these meetings with 20-20
                  hindsight and make a determination whether they were properly
                  closed based solely on the actual content of the discussions.

                  By including agenda items in closed sessions that should otherwise
                  be covered in open meetings, the Board may not be providing the
                  public with the access intended under the Sunshine Act. Absent
                  special circumstances, the pubic has a right to observe the agency
                  decision-making process first-hand. In addition, when the Board
                  conducts apparent non-exempt discussions behind closed doors,
                  there is a lack of transparency of Board activities.

                   Recommendations

                  In order to evidence that it is properly applying the "likely to"
                  standard for using a Sunshine Act exemption when including an
                  agenda item in closed session, we again recommend that the
                  Executive Officer of the National Science Board:

                          Develop and implement a formal process for determining
                          and documenting the basis for placing each specific agenda
21
     See 5 U.S.C. 9 552b(c)(6).
22   Id. 9 552b(c).
              item in a closed meeting rather than an open meeting. This
              should include identifying the exemption relied upon and
              how the proposed discussion "is likely" to disclose
              information covered by that exemption. This determination
              should occur when the specific agenda items are known and
              therefore, sufficient information is available to make an
              informed decision consistent with the Sunshine Act's overall
              presumption in favor of open meetings. Additionally, in
              documenting the basis for the determination, the Board
              Office should take into account the certification requirement
              of the Sunshine Act so that the certification is based upon
              actual agenda items and their justification for being included
              in a closed meeting; and

              Provide in-depth and ongoing training to all affected staff and
              Board members, both within the Board office and NSF staff,
              on this documentation process. This training should also
              include Sunshine Act exemptions applicable to the Board's
              activities and their proper application.

Procedural Compliance
        The Sunshine Act is replete with detailed procedural requirements
        that must be followed for both open and closed meetings. During
        2006, the Board greatly improved its performance, and consistently
        complied with these requirements.

        Consistent Compliance Demonstrated

        The Act requires the agency to publicly announce the date, time,
        and place of a meeting, whether the meeting is open or closed, and
        contact information should more information be requested. The
        announcement is to be made at least one week before the actual
        meeting date. In 83 of 85 meetings (98 percent), the Board met
        these requirements.

        In early 2006, the Board implemented new procedures for ensuring
        that it complies with the Act's public announcement requirements.
        We noted only one instance where a public announcement was not
        made at least one week before the meeting, and one instance
        where the announcement did not contain the proper contact
        information as required by the Act. Both of these instances
        occurred in January, prior to the Board's implementation of the new
        procedures. For the remainder of the year, the Board complied
        with these public announcement requirements with no exceptions.
        Additionally, the Board submitted its 2005 annual report to
Congress, posted all required federal register notices, followed
procedural voting requirements, retained general counsel
certifications, and made all closed meeting transcripts available to
the public.

Two Areas for Improvement

We did note two areas where the Board could continue to improve
its procedural compliance with the Sunshine Act's requirements.

Additions to Announced Agendas: First, the Act states, "The
subject matter of a meeting, or the determination of the agency to
open or close a meeting, or portion of a meeting, to the public, may
be changed following the public announcement only if (A) a majority
of the entire membership of the agency determines by a recorded
vote that agency business so requires and that no earlier
announcement of the change was possible, and (B) the agency
publicly announces such change and the vote of each member
upon such change at the earliest practicable time."

We identified several instances in which the Board added items to
already publicly announced agendas without the Board's vote and
public announcement of the change, as required by the Act. Of
particular concern was the addition of items that involved
deliberations by the Board and resulted in the disposal of agency
business. For example, the May 10 Plenary Executive Closed
Session and May 10 Executive Committee Closed Session
involved discussions of a retroactive approval of a Board
member's proposal.

During 2006, the Board did not have formal policies and procedures
prescribing the required steps to be followed when an item needed
to be added to the agenda after the public announcement. As
such, the public may not be adequately informed to decide whether
to attend a meeting, request a transcript of a closed session, or
challenge the closing of a meeting in court. Also, when agenda
items are added to closed sessions without the Board's discussion
and vote, these items may not receive adequate consideration to
determine whether they are appropriately included in an open or
closed session.

As a result of this audit, the Board Office recently developed and
implemented formal policies and procedures to ensure that the
Board conducts the required vote to change already publicly
announced agendas and that these changes are announced to the
       public. The Board Office also provided training on these new
       policies and procedures to relevant NSF and Board staff.

       Complete Transcripts of Closed Meetings: The second area of
       improvement involves the full recording of each closed Sunshine
       Act meeting. The Act requires the Board to maintain a complete
       transcript or electronic recording adequate to record fully the
       proceedings of each meeting, or portion of a meeting, closed to the
       public. However, in one instance the court reporter did not fully
       record the proceedings of a closed meeting. The closed transcript
       indicates there was an "off-the-record discussion" during the
       meeting that was not recorded.

       It appears that the omitted discussion occurred in between two
       agenda items and involved only informal conversation between
       Board members. However, absent instructions to the contrary, it
       also appears the court reporter made a judgment about the
       discussion and decided not to record it as required.

       Recommendation

       To improve its compliance with the procedural requirements of the
       Sunshine Act, we recommend the Executive Officer of the National
       Science Board provide formal directions to court reporters to fully
       record all closed meeting discussions.

Agency Response
       The National Science Board reviewed a draft of this report and
       responded that the Board and Board Office are "committed to
       complying fully with the Government in the Sunshine Act." In
       addition, the Board generally agreed with our findings and will take
       appropriate action.

       We have attached the Board's response to this report in its entirety
       as an appendix.
Appendix A: Agency Response


                                                                              A:,.x.;
                                                                  ,               -,,I




                                                      .-.. .., ...drp Board
                                               ~ationaF&~@;;e
                                                                                                             Febmary 12,2007



      ME31OEUYDU-11

      TO:                 Dr. Christule Boesz




                                                                                         v
                          I~ispectorGeneral. XSF

      mO11:               Dr. Michael P. Crosby


      SCBJECT:
                          Executisr Officer nnd Board

                          Respouse to CY 2006 Sumshine Act Audit
                                                                  '"."'    ffice Director



      Thank you for the oppormuity to review and respond to the Office of Inspector General (OIG)
      Audit of the Xatioual Science Board (Board) Conipliance with the Goceinment in the Sunshine
      Act for caleadar year 2006. We were also provided with excelleut briefings of the audit report
      and process by Karen Scott, Elizabeth Goelwls, w d Cindi Davis: and received sugestious
      from Kristen Cutforth earlier in the year. All of these colnmeuts were helpful and assisted us in
      proactively addressing some of the issues raised by implementing an immediate review of
      corrective steps with the Board Office staff (includingExecutive Secretaries).

      Since your h r t audit report in February 2006, the Board Office has takeu several actiolls that
      we believe will h?lp to fual~erfacilitate public access to Board meetings and discussious,
      which include the following.

               Instituting a meetiug notice scheduling process using Outlook's calelldar application to
               provide automated reminderr of required tasks to Board staff respousible for timely
               S~uislineAct co~nphuce.
          =    Use of the 'rules' h c t i o n of Outlook's e-mail application to record the pstiug dates
               and coutent of requirrd Suushine Act notices.

               Iniplementing the use of electroilicFederal Register submissions to expedite the
               processing and publication of Board notices. Under most circumstances the Board
               Office's scheduli~~g  process with Outlook helps to provide timely notice the public.
               H o m e r , in 2006 tile Board Office pi~blislieda Federal Register ilotice to convct a
               minor, but previously published etror (7 1 FR 15220). Electronic transmittal of tlie
               Board's S u h e Acf submissions to the Federal Register will help to expedite the
               processing and publication of unscheduled notices ~ n mnay
                                                                        d reduce the processing time
               required for scheduled notices by 1-2 days (collip~redto our prior practice of using
               cowier-delivered si~bmissions).



                                                                          -.--"""-----
                                                         Na:ional Scicclce Foundalion
         .I201 Vdtlurn tioulcvarrl   6   Nlin!:tn. W@nia 2!2.10       i7113) 29;'-XXX1                                      , ~ ~ ~ iNSH(>ftt(:<.b!ld.gilv
                                                                                         k ~ y ; $ A ~ ~ * ~ ~ ~ v . n +r lc!s!:rll: !~~iI~
       Teleconferences or addition~lsessions of the Board's discretionary conlmittees may be
       scheduled 9 m time to time during the year. When closure is contemplated for these
       sessions, I conduct a record vote of the full Board by e-mail, where I list the specific
       topic(s) to be discussed. review the relevant S~mshineAct open meetiug exemption(s),
       and provide an explanation for the application of the exemption(s). Documentation
       about closure of these sessions is contained in my e-mail correspondence with the
       Members; the Qeneral Counsel's Certificate, aud the clostue notice posted on the Board
       W e b site.

The Board and Board Office are conlmitted to complying fully with the Government in the
Sunshine Act, and are pleased that you noted in your report the improveillentswe have made
since last year. For example. the Board Office mas in 100 perceni coillplia~~cewith Su~~sllinr
Act's notice requirements after instihltiug ue\v procedures in early 2006. Xevertheless, we will
work to develop and implement procedures to address the specific issues you identified for
~lpcorningBoard meetings.

We appreciate your efforts in continuing to help us identdy opportunities to enhance our
current processes and protocok for Board operations in accordance with the Government in the
Sunshine Act. If you or your staff has any questions, please feel fiee to contact me directly.




cc: S-Beering
    D. Cureton
    K.Cutforth
    S. Fannoney
    E. Goebels
    R MOY
    K. Scott
